                More Effective Procedures Are Needed to
              Process Taxpayers’ Claims That They Did Not
                Request Employer Identification Numbers
                           Assigned to Them

                                 September 2005

                       Reference Number: 2005-30-131




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                 September 23, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



      FROM:                        Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - More Effective Procedures Are Needed to
                                   Process Taxpayers’ Claims That They Did Not Request
                                   Employer Identification Numbers Assigned to Them
                                   (Audit # 200430012)


      This report presents the results of our review to evaluate the Internal Revenue Service’s
      (IRS) controls over the various methods and procedures used for the issuance of
      Employer Identification Numbers (EIN). As part of this review, we determined whether
      there were additional steps the IRS could take to increase the efficiency and
      effectiveness of the processing of requests for EINs. This review was undertaken at the
      request of the IRS with information provided in part by the IRS Small Business/
      Self-Employed (SB/SE) Division Research function staff. We will conduct a subsequent
      audit to assess the compliance impact of EINs requested but not used in filing tax
      returns.
      EINs are nine-digit numbers assigned by the IRS to sole proprietors, corporations,
      partnerships, estates, trusts, and other nonindividual entities for tax filing and reporting
      purposes. The EIN has become a standard identifier used by a variety of entities
      outside the Federal Government domain, and the uses of and needs for EINs extend
      well beyond the scope of filing Federal income or employment tax returns. Taxpayers
      can request EINs by telephone, fax, mail, or online,1 using an Application for Employer
      Identification Number (Form SS-4). EIN applications are processed at the
      Brookhaven, New York; Cincinnati, Ohio; and Philadelphia, Pennsylvania, Campuses.2


      1
       An EIN issued online is referred to as an I-EIN.
      2
       The data processing arms of the IRS. The campuses process paper and electronic submissions, correct errors, and
      forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                         2

The information provided by taxpayers or their representatives to the Form SS-4
questions, such as names, addresses, Social Security Numbers, etc., is used to
establish accounts on the IRS Business Master File.3
The IRS issued 9.3 million new EINs in Calendar Years 2000 through 2002. As of
September 1, 2003, 4.2 million of those EINs were unused.4 In 2004, the IRS SB/SE
Division Research function staff sent survey letters to a statistically valid sample of
taxpayers who had requested and were assigned EINs but never used them. Research
findings5 showed approximately 15 percent of taxpayers responding to the survey letters
indicated they did not request the EINs.
As the administering authority for the EIN process, the Customer Account Services
(CAS) function monitors the EIN growth rates. EINs issued unnecessarily affect
resources, create burden on all taxpayers, and may signal compliance abuse or
abusive-scheme activity. With a growing number of taxpayers applying for EINs online,
and the almost immediate assignments of the EINs inherent in that method, any
weaknesses in the system will be quickly magnified. Taxpayers also need to know what
steps to take to ensure their own personal/financial protection if they believe EINs were
issued without their knowledge or authorization.
In summary, we concluded the IRS needs more effective procedures to handle
taxpayers’ claims that they had not requested the EINs assigned to them. In addition,
the EIN Application Processing Unit6 correspondence processing staffs lack procedures
which would enable them to assist taxpayers claiming or implying that their personal
information may have been used to obtain the EINs without their knowledge or
authorization. The lack of effective procedures can result in poor customer service,
inequitable treatment of taxpayers, and an increase in the number of issued but unused
EINs. There is currently no way to ascertain the magnitude or growth of this problem.
No records are kept on the number of taxpayers who contact the IRS and make such
claims, and there is no system that tracks the number of subsequent EIN invalidations.
Original Forms SS-4 are usually destroyed after processing, leaving no records to
provide copies to taxpayers or for internal research.
To ensure the quality of customer service, reduce the number of EINs issued
unnecessarily, and address taxpayers’ claims that EINs were issued without their
knowledge or authorization, we recommended the Director, CAS, Wage and Investment
(W&I) Division, establish a diagnostic period (e.g., 1 year) during which original
Forms SS-4 will not be destroyed but maintained at campuses so copies can be

3
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
4
  “Use of an EIN” refers to taxpayers who file a Federal income tax return, which is supported and identified on the
IRS Master File by the posting of a Transaction Code 150. Although an EIN appears unused by the IRS definition,
this does not mean the EIN is not used outside the Federal Government domain (e.g., State licensing requirements).
Inherent in the current EIN application process is the likelihood of a certain percentage of unused EINs.
5
  Who’s Requesting EINs? An Analysis of the Growth Rate of Unused Employer Identification Numbers,
SB/SE Division Research function Report for Project 05.02.002.03, dated August 2004.
6
  Referred to in this report as the EIN Unit.
                                                       3

provided to taxpayers or for internal research, create a recording/tracking system to
determine the number of taxpayers contacting the IRS and claiming they did not request
the EINs assigned to them and the number of resulting EIN invalidations, and analyze
data collected to identify trends (e.g., volume, application method, campus, issue) and
explore procedural improvements to eliminate problematic issues. We also
recommended the Director, CAS, W&I Division, develop and clarify procedures to
ensure such claims are processed accurately and increase the number of EIN Unit
correspondence cases reviewed in the Program Analysis System;7 require the EIN Unit
tax technicians to enter into the Integrated Case Processing System (ICP)8 all actions
with respect to the handling of taxpayers’ claims that they did not apply for the EINs
assigned to them; and, at the end of the diagnostic period, determine what function
should handle unresolved claims. In addition, we recommended the Director, CAS,
W&I Division, advise taxpayers what steps to take if taxpayers claim or imply their
identities have been used/stolen to obtain EINs.
Management’s Response: The Commissioner, W&I Division, agreed with one
recommendation, partially agreed with one recommendation, disagreed with four
recommendations, and stated actions have been completed on one recommendation.
The Commissioner agreed to improve the procedures implemented when taxpayers
contact the IRS stating they did not request the EINs assigned to them. These
taxpayers will be contacted and, if it is deduced that the requests were not legitimate,
the Integrated Data Retrieval System (IDRS)9 or ICP System will be notated so IRS
employees are alerted to possible misuse of the EINs. The Commissioner agreed that,
if taxpayers believe their identities may have been compromised, the IRS will provide
information on how to contact the Federal Trade Commission to receive assistance. In
addition, the Commissioner stated the Accounts Management function will remain
responsible for resolving inquiries from taxpayers indicating they did not request or need
EINs.
However, the Commissioner disagreed with our recommendations to establish a
diagnostic period during which original Forms SS-4 would not be destroyed but
maintained at campuses for taxpayer assistance, internal research, and trend analyses
and to explore processing improvements to eliminate problematic issues. The
Commissioner also disagreed with our recommendations to create a recording/tracking
system to determine the magnitude of the problem, increase the number of EIN Unit
correspondence cases that are reviewed, and require that tax technicians record on the
ICP System all actions taken with respect to these cases. Cost considerations were
stated as the main reason for the disagreements with these recommendations.
Management’s complete response to the draft report is included as Appendix IV.

7
  The Program Analysis System performs the national quality review for paper programs, which includes the EIN
Units’ correspondence inventory.
8
  The ICP System supports the work performed by customer service representatives. Access is provided to multiple
systems from a single workstation. Functionality includes inventory management, next case delivery, nationwide
history, and follow-ups.
9
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                         4

Office of Audit Comment: Without the collection and analysis of information on the
original Forms SS-4 during a limited diagnostic period, the IRS would be restricted from
1) determining why taxpayers are claiming they were assigned EINs they did not
request, 2) identifying steps the IRS could take to eliminate the taxpayers’ confusion,
and 3) identifying the potential use of taxpayers’ information to obtain EINs without their
knowledge or consent. We do not agree that the taxpayers in our sample were
confused or that 15.2 percent of the taxpayers that responded to the IRS survey letter
and claimed they did not apply for EINs were “nonresponses.”10 The SB/SE Division
Research function cannot produce the taxpayers’ responses or any documentation
regarding subsequent conversations with these taxpayers.
Since this audit was undertaken at the request of the IRS due to its concern over the
growth of issued but unused EINs and the resulting impact on resources and increased
taxpayer burden, we believe the IRS should weigh the costs of conducting our
recommended short-term analysis and expanded case review against the costs and
burden associated with issuing EINs unnecessarily, handling inquiries from concerned
taxpayers, and alerting taxpayers that EINs they did not request were issued to them
without their knowledge or consent.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-3837.




10
  Of the 6,262 taxpayers who were sent survey letters, 4,888 (78 percent) did not respond to the IRS. Of the
1,374 taxpayers who did respond, 209 (15.2 percent) claimed they did not apply for the EINs.
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Needs More Effective Procedures to
Handle Taxpayers’ Claims That They Did Not Request Employer
Identification Numbers Assigned to Them................................................. Page 3
         Recommendation 1: .......................................................................Page 10
         Recommendation 2: .......................................................................Page 11
         Recommendation 3: .......................................................................Page 12
         Recommendation 4: .......................................................................Page 13
         Recommendation 5: .......................................................................Page 14
         Recommendation 6: .......................................................................Page 15

The Internal Revenue Service Should Provide Assistance to Taxpayers
Claiming Their Personal Information Was Used to Obtain Employer
Identification Numbers Without Their Knowledge or Authorization............ Page 15
         Recommendation 7: .......................................................................Page 16

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 18
Appendix II – Major Contributors to This Report ....................................... Page 20
Appendix III – Report Distribution List ....................................................... Page 21
Appendix IV – Management’s Response to the Draft Report .................... Page 22
  More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
               Request Employer Identification Numbers Assigned to Them

                                 Employer Identification Numbers (EIN) are nine-digit
Background
                                 numbers assigned to sole proprietors, corporations,
                                 partnerships, estates, trusts, and other nonindividual entities
                                 for tax filing and reporting purposes. The EIN has become
                                 a standard identifier used by a variety of entities outside the
                                 Federal Government domain. The uses of and needs for the
                                 EINs extend well beyond the scope of filing Federal income
                                 or employment tax returns.
                                 Taxpayers can request EINs by telephone, fax, mail, or
                                 online,1 using an Application for Employer Identification
                                 Number (Form SS-4). The EIN applications are processed
                                 in EIN Application Processing Units2 at the
                                 Brookhaven, New York; Cincinnati, Ohio; and
                                 Philadelphia, Pennsylvania, Campuses.3 The information
                                 provided by taxpayers or their representatives to the
                                 questions on the Form SS-4, such as names, addresses,
                                 Social Security Numbers, etc., is used to establish accounts
                                 on the Business Master File (BMF).4
                                 In October 2003, the IRS Small Business/Self-Employed
                                 (SB/SE) Division Research function issued the EIN Interim
                                 Profile Report, which provided various statistics regarding
                                 the growth in the percentage of “issued” versus “unused”
                                 EINs.5 According to this Report, the IRS issued
                                 9.3 million new EINs in Calendar Years 2000 through 2002,
                                 and, as of September 1, 2003, 4.2 million of those EINs
                                 were unused. SB/SE Division researchers reported the
                                 number of requests for EINs, and ultimately unused EINs,
                                 was increasing.


                                 1
                                   An EIN issued online is referred to as an I-EIN.
                                 2
                                   Referred to in this report as EIN Units.
                                 3
                                   The data processing arms of the IRS. The campuses process paper and
                                 electronic submissions, correct errors, and forward data to the
                                 Computing Centers for analysis and posting to taxpayer accounts. In
                                 Fiscal Year 2004, the Brookhaven and Philadelphia Campuses handled
                                 approximately 87 percent of the EIN inventory, while the
                                 Cincinnati Campus processed 11 percent of the inventory.
                                 4
                                   The IRS database that consists of Federal tax-related transactions and
                                 accounts for businesses. These include employment taxes, income taxes
                                 on businesses, and excise taxes.
                                 5
                                   “Use of an EIN” refers to taxpayers who file a Federal income tax
                                 return, which is supported and identified on the IRS Master File by the
                                 posting of a Transaction Code 150.
                                                                                                 Page 1
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               As the administrating authority for the EIN process, the
                               Customer Account Services (CAS) function monitors EIN
                               growth rates. CAS function management was concerned
                               this trend might suggest more taxpayers were requesting
                               EINs for reasons other than to satisfy IRS filing
                               requirements.6
                               As a result of their concerns, CAS function management
                               requested the assistance of the Treasury Inspector General
                               for Tax Administration audit staff to help them determine if
                               this trend of issued but unused EINs posed a potential
                               compliance problem for the IRS.7 Therefore, this review
                               was undertaken at the request of the IRS with information
                               provided in part by the IRS SB/SE Division Research
                               function staff.
                               This audit was conducted in accordance with Government
                               Auditing Standards with information and cases obtained
                               from the EIN Units at the Brookhaven, Cincinnati, and
                               Philadelphia Campuses and from CAS function National
                               Headquarters management and staff during the period
                               January 2004 through February 2005. Detailed information
                               on our audit objective, scope, and methodology is presented
                               in Appendix I. Major contributors to the report are listed in
                               Appendix II.




                               6
                                 Although an EIN appears unused by the IRS definition, this does not
                               mean the EIN is not used outside the Federal Government domain
                               (e.g., State licensing requirements). Inherent in the current EIN
                               application process is the likelihood of a certain percentage of unused
                               EINs.
                               7
                                 The IRS Criminal Investigation Division staff was also working with
                               the CAS function on this project.
                                                                                                Page 2
   More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
                Request Employer Identification Numbers Assigned to Them

                                  We determined the IRS needs more effective procedures to
The Internal Revenue Service
                                  handle taxpayers’ claims that they did not request the EINs
Needs More Effective Procedures
                                  assigned to them. The lack of effective procedures can
to Handle Taxpayers’ Claims
                                  result in poor customer service, inequitable treatment of
That They Did Not Request
                                  taxpayers, and an increase in the number of issued but
Employer Identification Numbers
                                  unused EINs on the BMF.
Assigned to Them
                                  After taxpayers apply for EINs, the IRS sends notices8 to
                                  them confirming assignment of the EINs.9 If taxpayers or
                                  their representatives subsequently contact the IRS and claim
                                  they did not apply for the EINs assigned, tax technicians are
                                  required to research the accounts using the Integrated Data
                                  Retrieval System (IDRS)10 and determine if there has been
                                  any activity in the accounts associated with the EINs in
                                  question.
                                  Based on the results of this research and information
                                  provided by the taxpayers, tax technicians correct account
                                  information, send correspondence to taxpayers requesting or
                                  providing additional information, and either invalidate11 the
                                  assigned EINs or leave the EINs as assigned. If research
                                  indicates activity in the accounts of the EINs in question,
                                  cases are forwarded to a specific campus for resolution. Tax
                                  technicians may or may not notify taxpayers as to the
                                  actions taken by the IRS, depending on the circumstances.
                                  Current procedures can result in poor customer service
                                  and inequitable treatment of taxpayers
                                  When taxpayers claim they did not apply for the EINs
                                  assigned to them, the Internal Revenue Manual (IRM)
                                  provides some research procedures for the tax technicians to

                                  8
                                    Notices designated by Internal Revenue Manual 21.7.13.7.8.
                                  9
                                    Taxpayers applying for EINs online are assigned the EINs almost
                                  immediately, along with the ability to print out the IRS documents
                                  which assigned the EINs. Several days later, the online applications are
                                  printed and processed as paper applications at the designated campuses.
                                  If tax technicians processing these applications determine the EINs
                                  should not have been issued, the tax technicians invalidate the EINs on
                                  the BMF and send letters to taxpayers telling them not to use the EINs.
                                  10
                                     The IRS computer system capable of retrieving or updating stored
                                  information; it works in conjunction with a taxpayer’s account records.
                                  11
                                     This is also referred to as the “cancellation” of an EIN. Tax
                                  technicians invalidate the EINs by using the IDRS to input Transaction
                                  Code 020 to taxpayers’ BMF accounts. Tax technicians’ managers must
                                  approve these invalidations.
                                                                                                  Page 3
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               follow before making EIN account changes, including
                               invalidating EIN accounts.12 However, tax technicians
                               cannot always determine from their research whether
                               taxpayers are confused, forgetful, or trying to elude tax
                               requirements/obligations or whether someone else requested
                               the EINs without the taxpayers’ knowledge and
                               authorization. Most original Forms SS-413 are routinely
                               destroyed after processing, making it impossible for tax
                               technicians to assist taxpayers who request copies of
                               documents or to use the documents for internal research.
                               As a result, tax technicians sometimes make decisions based
                               on taxpayers’ statements and information obtained through
                               the IDRS, which may or may not be accurate. In many
                               instances, there are incomplete or nonexistent case histories
                               on the IDRS or the Integrated Case Processing (ICP)
                               System.14 Often, previous IRS actions and contacts with
                               taxpayers are not clearly documented. Because of these
                               limitations, tax technicians are not always able to provide
                               adequate customer service with respect to problem
                               resolution, and some taxpayers need to contact the IRS
                               multiple times regarding the same problems.
                               In addition, taxpayers are not always treated equitably. For
                               example, although research shows no activity in the EIN
                               accounts of taxpayers identified as sole proprietors and
                               taxpayers claim they never applied for these EINs, such
                               EINs are generally not invalidated on the BMF. We could
                               find no processing guidelines to substantiate this practice.
                               To further complicate the situation, taxpayers are sometimes
                               informed that these EINs are invalidated, when in fact the
                               EINs are not always invalidated on the BMF. These sole
                               proprietor EINs remain on the BMF, contribute to the
                               growing number of issued but unused EINs, and can create
                               problems if these taxpayers apply for EINs in the future.



                               12
                                  IRM 21.7.13.6.
                               13
                                  In some instances (e.g., telephone applications), there are no
                               documents per se.
                               14
                                  The ICP System supports the work performed by customer service
                               representatives. Access is provided to multiple systems from a single
                               workstation. Fuctionality includes inventory management, next case
                               delivery, nationwide history, and follow-ups.
                                                                                               Page 4
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               Determining the magnitude or growth of issued but
                               unused EINs is difficult
                               Currently, the IRS has no way to ascertain the magnitude or
                               growth of this problem because no records are kept on the
                               number of taxpayers who contact the IRS and make such
                               claims. There is no requirement that provides for the
                               collection or tracking of this information or the number of
                               EIN invalidations that occur as a result.
                               In 2004, the IRS SB/SE Division Research function
                               staff sent 6,262 survey letters to a statistically valid
                               sample of taxpayers who had requested EINs in
                               Calendar Years 2000 through 2002 but had never used the
                               EINs. The survey results were included in the report
                               entitled, Who’s Requesting EINs? An Analysis of the
                               Growth Rate of Unused Employer Identification Numbers.15
                               Of the 1,374 taxpayers responding to the IRS’ survey,
                               209 (15.2 percent) claimed they did not request the EINs.16
                               We reviewed a judgmental sample of processed EIN
                               application inventory at the Brookhaven Campus EIN Unit,
                               including EIN correspondence cases.17 We noted several
                               correspondence cases involved letters from taxpayers or
                               their representatives that claimed they never requested the
                               EINs assigned to them by the IRS.
                               We expanded our sample and requested the Brookhaven,
                               Cincinnati, and Philadelphia Campus EIN Units photocopy
                               any correspondence sent in by taxpayers or their
                               representatives making similar claims during a period of
                               several days. The EIN Units processing correspondence



                               15
                                  SB/SE Division Research function Report for Project 05.02.002.03,
                               dated August 2004.
                               16
                                  No further information was able to be obtained from these taxpayers
                               because the survey response forms were specifically designed to
                               maintain the confidentiality of the respondees and contained no
                               identifying taxpayer information.
                               17
                                  See Appendix I for additional information on the sample. These
                               correspondence cases consisted of a myriad of contacts from taxpayers
                               regarding EIN-related issues and are reported as a separate category in
                               the EIN Paper Comparison Reports. These internal Reports record the
                               inventory worked in the SB/SE Division Brookhaven, Cincinnati, and
                               Philadelphia Campus EIN Units.
                                                                                                Page 5
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               inventory at the Brookhaven and Philadelphia Campuses18
                               worked 2,123 correspondence cases during this collection
                               period and identified 26 cases (1.2 percent) that met the
                               criteria outlined above.19
                               Some of these 26 cases included EINs and I-EINs assigned
                               to children, disabled, and/or elderly taxpayers. Some
                               taxpayers requested copies of the EIN applications and
                               specifically stated that they suspected someone used their
                               identities. In addition, multiple EINs were assigned to some
                               of the taxpayers, which they claimed they knew nothing
                               about.
                               We performed research on each of the 26 cases20 using the
                               IDRS and ICP System and worked with EIN Unit lead tax
                               technicians to reach a determination as to why these
                               taxpayers were originally assigned EINs and whether
                               subsequent actions taken by the IRS after the taxpayers’
                               correspondence was processed resolved the taxpayers’
                               problems.
                               Approximately 75 percent of these 26 taxpayers contacted
                               the IRS within 60 days of receiving letters21 or notices from
                               the IRS.22 Some taxpayers were contacting the IRS for the
                               second time regarding the same matter.23 The rest of the


                               18
                                  The Cincinnati Campus processed only 8 percent of the 232,579 EIN
                               Correspondence cases worked in Fiscal Year 2004. Although this
                               Campus participated in our test, no cases meeting the criteria were
                               identified. We chose to eliminate results from this Campus because we
                               could not verify the accuracy of the test conducted, the low volume
                               normally processed there, and the fact that it would not materially affect
                               the outcome.
                               19
                                  Approximately 35 percent of the EINs in question had been assigned
                               online. Approximately 69 percent of the EINs were assigned to sole
                               proprietors; another 27 percent involved entities identified as Limited
                               Liability Companies. The rest were assigned to trusts.
                               20
                                  A 27th case was reviewed. While the case did not meet our specific
                               criteria, we believed the case was significant enough to study since
                               money-laundering allegations were involved.
                               21
                                  IRM 21.7.13.7.7.
                               22
                                  Sixteen of the 26 taxpayers (62 percent) contacted the IRS within
                               30 days of receiving Computer Generated Notices of New Employer
                               Identification Number Assigned (CP 575 Notice) acknowledging receipt
                               of their EIN applications and confirming the EINs assigned to them.
                               23
                                  Approximately 19 percent of the taxpayers were contacting the IRS
                               for the second time.
                                                                                                 Page 6
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               taxpayers contacted the IRS because they attempted to apply
                               for EINs and were told EINs were already assigned to them,
                               or the taxpayers were contacted by the Social Security
                               Administration (SSA) or another function of the IRS
                               regarding EINs they claimed they knew nothing about.
                               Initially, we found 23 of the 26 EINs in question were
                               unused. There were returns posted to the accounts of the
                               other three EINs, but we later determined the three EINs in
                               question were assigned as the result of IRS processing
                               errors.24
                               We also determined the IRS correctly assigned 3 of the
                               23 unused EINs to taxpayers who claimed they did not
                               apply for the EINs. Under certain circumstances, taxpayers
                               who apply for EINs for Limited Liability Companies are
                               also assigned an additional EIN.25
                               In their correspondence to the IRS, some taxpayers stated
                               they thought someone else was using their personal
                               information to commit fraud. Other taxpayers’
                               correspondence was stamped into the IRS Criminal
                               Investigation Division’s inventory but was returned to the
                               EIN Unit inventory to be worked.26
                               Subsequent actions by EIN Unit tax technicians did not
                               resolve many problems
                               We could not determine from the IDRS, ICP System, or
                               taxpayers’ records what occurred with respect to the
                               handling of some of the taxpayers’ correspondence or if
                               taxpayers were told what they needed to do to resolve the
                               problems. Some of the EINs assigned to taxpayers who
                               claimed they did not request EINs were invalidated while
                               others were not, and we could not always determine why.
                               Case histories are not retained on the IDRS long enough to
                               perform necessary case research, and tax technicians are not
                               required to input actions taken on the EIN Unit

                               24
                                  We determined only one of the three accounts was corrected by tax
                               technicians after the processing of the taxpayers’ correspondence. The
                               other two taxpayers were still misassociated with accounts of other
                               taxpayers.
                               25
                                  IRM 21.7.13.5.4.3.
                               26
                                  These cases did not appear to have been worked by the Criminal
                               Investigation Division.
                                                                                               Page 7
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               correspondence cases to the ICP System. While some tax
                               technicians did enter information to the ICP System, it was
                               not always detailed enough to determine if the taxpayers’
                               claims were resolved appropriately.
                               In general, we found that taxpayers claiming they did not
                               apply for the sole proprietor EINs assigned to them were
                               informed the EINs would be invalidated. However, tax
                               technicians usually did not invalidate these EINs on the
                               BMF even when there was no activity in the accounts, due
                               to what appeared to be an informal, unwritten procedure.
                               These taxpayers were still associated with these EINs on the
                               IRS’ database.
                               As mentioned above, when EINs were assigned due to IRS
                               processing errors, the actions taken by tax technicians did
                               not always completely resolve the problems. Taxpayers
                               were still misassociated with EIN accounts belonging to
                               other taxpayers, and some of the actions taken affected
                               business information on the IRS’ database, such as filing
                               requirements and addresses.27
                               Other taxpayers were requested to submit additional
                               information, and the EINs assigned to them were not
                               invalidated. However, it was not clear what these taxpayers
                               were asked to submit or what they could submit to prove
                               they did not request these EINs.
                               There is no system that tracks the number of subsequent
                               EIN invalidations
                               Tax technicians invalidate the EINs by using the IDRS to
                               input a certain transaction code28 to the taxpayers’ accounts.
                               Procedures require tax technicians to secure the approval of
                               their managers to invalidate EINs taxpayers claimed they
                               did not request. There is currently no requirement that
                               records of the number of EIN invalidations performed or the
                               reasons for the invalidations be kept for tracking purposes
                               on either local or national levels. Without a requirement to


                               27
                                  With respect to the handling of the case involving money-laundering
                               allegations (27th Case), the tax technician removed the filing
                               requirements for the company in error. There is no indication the case
                               was sent for further review for fraud.
                               28
                                  Transaction Code 020.
                                                                                               Page 8
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               track EIN invalidations, there is no data captured for
                               research or trend analyses.
                               Once EINs have been invalidated from the BMF, taxpayers
                               no longer receive communication from the IRS regarding
                               these EINs. However, many of the taxpayers’ names were
                               still linked to these EINs in the IRS’ database, which might
                               be confusing if these taxpayers apply for EINs in the future
                               or if returns are filed at a future date using these EINs.
                               More oversight of these types of correspondence cases is
                               necessary
                               As part of the National Quality Review Program, a certain
                               number of the EIN Unit correspondence cases are reviewed
                               in the Program Analysis System (PAS)29 each quarter. The
                               results are entered into the Quality Review Database if
                               errors are found in the way cases were handled by tax
                               technicians. In Fiscal Year 2004, only 19 of the
                               232,579 EIN Unit correspondence cases were reviewed in
                               the PAS. None involved taxpayers claiming they did not
                               apply for the EINs assigned to them.
                               We believe there needs to be additional oversight of the EIN
                               Units’ correspondence inventory to identify trends or case
                               processing problems. In the cases we reviewed, it was not
                               always clear from data on IRS systems why tax technicians
                               made decisions to invalidate or not invalidate the EINs.
                               This led us to conclude that tax technicians were sometimes
                               compelled to make subjective decisions and, as a result,
                               taxpayers were not always treated equitably.
                               In addition, taxpayers seeking assistance were not always
                               helped. Some taxpayer accounts that were misassociated
                               with the accounts of other taxpayers were not corrected,
                               and, in some instances, the absence of case histories on the
                               IDRS or entries into the ICP System created doubt that
                               taxpayers’ correspondence was processed appropriately.



                               29
                                The PAS performs the national quality review for paper programs,
                               which includes the EIN Units’ correspondence inventory.



                                                                                            Page 9
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               Subsequent postings of returns30 in Calendar Year 2005 to
                               several of the accounts were unexplainable31 and resulted in
                               the reestablishment of BMF accounts, reversals of EIN
                               invalidations, and establishment of filing requirements. As
                               of the end of our audit fieldwork, these problems were not
                               resolved. Some taxpayers who were originally sent letters
                               informing them that EINs were invalidated are now set up
                               on the IRS’ computer system to receive notices pertaining to
                               these accounts.
                               To ensure the quality of customer service and the equitable
                               treatment of taxpayers and to reduce the number of issued
                               but unused EINs on the BMF, CAS function management
                               needs to increase oversight of the processing of the EIN
                               Units’ correspondence inventory. More effective policies
                               and procedures must be implemented to handle taxpayers’
                               claims that they did not request the EINs assigned to them,
                               and actions must be taken to understand the magnitude and
                               growth of this problem.

                               Recommendations

                               The Director, CAS, Wage and Investment (W&I) Division,
                               should:
                               1. Establish a diagnostic period (e.g., 1 year) during which
                                  original Forms SS-4 will not be destroyed but
                                  maintained at campuses so copies can be provided to
                                  taxpayers or for internal research.32
                               Management’s Response: Management disagreed with this
                               recommendation, stating that establishing a diagnostic
                               period during which time original Forms SS-4 would not be
                               destroyed, but maintained at processing sites so copies


                               30
                                  Employer’s Annual Federal Unemployment (FUTA) Tax Return
                               (Form 940), Employer’s Quarterly Federal Tax Return (Form 941), and
                               Transmittal of Wage and Tax Statements (Form W-3).
                               31
                                  In some instances, this could be the result of third-party reporting
                               agent issues.
                               32
                                  The SB/SE Research Division function also recommended the
                               retention of all available information from the Forms SS-4 to gauge the
                               motivation behind requests for EINs. The IRS currently captures this
                               data for the SSA but does not fully transcribe the Form SS-4 for internal
                               use.
                                                                                               Page 10
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               could be provided to taxpayers or for internal research,
                               would be difficult and costly to implement with little overall
                               benefit.
                               Office of Audit Comment: Without the collection and
                               analysis of information on the original Forms SS-4 during a
                               limited diagnostic period, the IRS would be restricted from
                               1) determining why taxpayers are claiming they were
                               assigned EINs they did not request, 2) identifying steps the
                               IRS could take to eliminate taxpayers’ confusion, and
                               3) identifying the potential use of taxpayers’ information to
                               obtain EINs without their knowledge or consent.
                               Since this audit was undertaken at the request of the IRS due
                               to its concern over the growth of issued but unused EINs
                               and the resulting impact on resources and increased
                               taxpayer burden, we believe the IRS should weigh the costs
                               of conducting our recommended short-term analysis and
                               expanded case review against the costs and burden
                               associated with issuing EINs unnecessarily, handling
                               inquiries from concerned taxpayers, and alerting taxpayers
                               that EINs they did not request were issued to them without
                               their knowledge or consent.
                               Our recommendation of a diagnostic period of 1 year was
                               merely an example, and, in discussions with management,
                               we suggested a much shorter period because 75 percent of
                               the taxpayers in our sample responded to the initial contact
                               letters from the IRS within 60 days. Since the IRS already
                               collects information from the Forms SS-4 for the SSA, even
                               a 3-month data collection period and analysis of the
                               Forms SS-4 would provide an opportunity for the IRS to
                               identify any additional key information that should be
                               obtained to assist taxpayers or research accounts if
                               taxpayers subsequently claimed they did not request the
                               EINs. Rather than just sending the current information
                               collected to the SSA, the IRS also would have the potential
                               to include additional key data and use the data collected for
                               its own purposes. This diagnostic study would include fax,
                               mail, and online applications (since these are currently
                               processed the same as the Forms SS-4 mailed to the IRS).
                               2. Create a recording/tracking system to determine the
                                  number of taxpayers contacting the IRS and claiming
                                  that they did not request the EINs assigned to them and
                                                                                     Page 11
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                                   the number of EINs actually invalidated on the IDRS as
                                   a result of such claims.
                               Management’s Response: Management disagreed with this
                               recommendation, stating that it would not be possible to
                               create a useful recording/tracking system that would
                               encompass the multiple channels of possible contact without
                               incurring substantial expense and that any data collected
                               would be of limited value.
                               Office of Audit Comment: In response to
                               Recommendation 4, the IRS agreed to revise procedures
                               with respect to taxpayers’ claims that they did not request
                               the EINs assigned to them. The IRS agreed that additional
                               contacts will be made with such taxpayers to ensure neither
                               the taxpayers nor their authorized representatives requested
                               the EINs. If it is deduced that a request was not made in the
                               taxpayer’s interest, tax technicians will be required to notate
                               this in the taxpayer’s account on the IDRS or ICP System.
                               If the method used to notate the accounts can be measured,
                               this would satisfy both Recommendations 2 and 4.
                               However, management does not specifically state in their
                               response to Recommendation 4 that such taxpayers’ account
                               notations will be measurable.
                               3. Analyze data collected to identify trends (e.g., volume,
                                  application method, campus, issue) and explore
                                  processing improvements to eliminate problematic
                                  issues.
                               Management’s Response: Management disagreed with our
                               recommendation, stating that, because it would be difficult
                               and of questionable value to maintain a file and develop an
                               ancillary tracking system, it would not be cost effective or
                               feasible to collect and analyze data as recommended.
                               Office of Audit Comment: Without the collection and
                               analysis of information on the original Forms SS-4 during a
                               limited diagnostic period, the IRS would be restricted from
                               1) determining why taxpayers are claiming they were
                               assigned EINs they did not request, 2) identifying steps the
                               IRS could take to eliminate taxpayers’ confusion, and
                               3) identifying the potential use of taxpayers’ information to
                               obtain EINs without their knowledge or consent. EINs
                               issued unnecessarily affect resources, create burden on all

                                                                                      Page 12
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               taxpayers, and may signal compliance abuse or
                               abusive-scheme activity. The ease of obtaining EINs online
                               and the growing number of “unused” EINs require that
                               management have a clear understanding of their customers
                               and how to best address their issues and concerns. Trend
                               analysis can be a valuable management tool when used to
                               identify necessary changes and improvements to processes
                               to better address customer needs. It also can serve as a “first
                               alert” system for possible compliance and abusive-scheme
                               activity.
                               We do not agree that the taxpayers in our sample were
                               confused or that 15.2 percent of the taxpayers that
                               responded to the IRS survey letter and claimed they did not
                               apply for EINs were “nonresponses,” as stated by
                               management. The SB/SE Division Research function
                               cannot produce the taxpayers’ responses or any
                               documentation regarding subsequent conversations with
                               these taxpayers.
                               4. Develop and clarify procedures to ensure taxpayers’
                                  claims that they did not request the EINs assigned to
                                  them are processed accurately and increase the number
                                  of EIN Unit correspondence cases reviewed in the PAS.
                               Management’s Response: Management agreed to revise the
                               procedures to ensure taxpayers’ claims that they did not
                               request EINs assigned to them are processed accurately.
                               Management agreed that these taxpayers will be contacted
                               by mail or telephone to ensure the requests were not made
                               by the taxpayers or their representatives. If it is deduced
                               that a request was not made in the taxpayer’s interest, a
                               notation will be made to the taxpayer’s account on the IDRS
                               or ICP System. Taxpayers who believe their identities may
                               have been compromised will be advised of the various
                               methods to contact the Federal Trade Commissioner
                               (FTC).33
                               However, management did not agree to increase the PAS
                               sample size, stating that PAS reviews are based on
                               statistically valid sampling techniques and anticipated
                               workload. Management stated that the Embedded Quality

                               33
                                 The FTC is the Federal Government agency designated to collect and
                               disseminate information for identity theft victims.
                                                                                           Page 13
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               Review System used by managers to review employees’
                               completed work and provide feedback to promote
                               continuous improvement will identify any needed
                               improvements.
                               Office of Audit Comment: Since the current PAS sampling
                               techniques and the Embedded Quality Review System
                               apparently did not identify this problem before our review,
                               it is not clear how these processes will operate differently in
                               the future to identify taxpayers’ claims that they did not
                               request the EINs assigned to them. The PAS figure used in
                               our report was provided to us by IRS management, and
                               there were no cases in the PAS samples in Fiscal Year 2004
                               involving taxpayers’ claims that they did not request the
                               EINs assigned to them. Since these cases are very
                               identifiable, it would be easy for management to increase
                               the number of cases selected for review in the PAS, at least
                               until this type of case meets an acceptable level of
                               processing accuracy and it is clear that management’s
                               proposed revised procedures are implemented correctly.
                               5. Require EIN Unit tax technicians to enter into the ICP
                                  System all actions with respect to the handling of
                                  taxpayers’ claims that they did not apply for the EINs
                                  assigned to them.
                               Management’s Response: Management disagreed with this
                               recommendation. However, in response to
                               Recommendation 4, management agreed to revise
                               procedures and require follow-up contacts with taxpayers to
                               ensure the EINs were not requested by third-party
                               representatives and to notate the IDRS or ICP System when
                               it is deduced that the EINs were not requested by the
                               taxpayers or their representatives. We believe these revised
                               procedures will be sufficient to alert IRS employees as to
                               the taxpayers’ concerns of possible misuse of the assigned
                               EINs. IRS management also stated that, as the ICP System
                               is replaced by Desktop Integration, the requirement to input
                               a note to the system will remain unchanged.




                                                                                      Page 14
    More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
                 Request Employer Identification Numbers Assigned to Them

                                    6. Determine what function within the IRS should handle
                                       unresolved taxpayers’ claims after the data collected
                                       during the diagnostic period have been analyzed.
                                    Management’s Response: Management has mandated that
                                    the Accounts Management function remain responsible for
                                    resolving inquiries from taxpayers indicating they did not
                                    request or need EINs.
                                    Office of Audit Comment: We requested that management
                                    determine what function within the IRS should handle
                                    unresolved taxpayers’ claims after the data collected during
                                    the diagnostic period have been analyzed. Without agreeing
                                    to conduct a diagnostic exercise, management has
                                    determined the Accounts Management function will remain
                                    responsible for resolving inquiries from taxpayers indicating
                                    they did not request or need EINs. In doing so, management
                                    fulfilled our recommendation to assign responsibility to a
                                    particular function to handle the resolution of such cases.
                                    The EIN Unit correspondence processing staffs lack
The Internal Revenue Service
                                    procedures which would enable them to assist taxpayers
Should Provide Assistance to
                                    claiming or implying that their personal information may
Taxpayers Claiming Their
                                    have been used to obtain EINs without their knowledge or
Personal Information Was Used
                                    authorization. The IRS’ main web site gives taxpayers
to Obtain Employer Identification
                                    specific instructions on what to do if they believe their
Numbers Without Their
                                    identities have been stolen.34 However, no such advice is
Knowledge or Authorization
                                    given to taxpayers who contact the EIN Units to claim they
                                    did not request the EINs assigned to them and suspect
                                    someone may have used their personal information to obtain
                                    the EINs.
                                    When taxpayers contact the designated EIN Units and claim
                                    they did not apply for the EINs assigned to them, tax
                                    technicians either invalidate or leave the EINs as originally
                                    assigned. If research indicates activity in the accounts of the
                                    EINs in question, cases are forwarded to a specific campus
                                    for resolution. There are no special procedures for tax
                                    technicians to follow, and there is no advice given to
                                    taxpayers who suspect their personal information was used
                                    to obtain EINs without their knowledge or authorization.



                                    34
                                         The www.irs.gov web site directs taxpayers to contact the FTC.
                                                                                                    Page 15
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               Taxpayers need to know what steps to take to ensure their
                               own personal/financial protection, especially since FTC
                               studies show that the earlier identity theft is reported by
                               individuals to credit agencies, the lower the costs incurred
                               by the victims. When there are no provisions to assist
                               taxpayers regarding the possible unauthorized use of their
                               personal information to obtain EINs, taxpayers may believe
                               contacting the IRS resolved the problem and no further steps
                               need be taken to ensure personal/financial protection.
                               However, as stated earlier, “use” of the EINs for tax filing
                               and reporting purposes falls within the domain of the IRS,
                               but what could occur outside that domain is speculative at
                               best. The IRS should let its customers know the proper
                               Federal Government agency to contact if they suspect their
                               personal information was used without their knowledge or
                               authorization and the IRS can offer no reasonable
                               explanation to the taxpayers (e.g., transcription errors,
                               misassociation of taxpayer account data, third-party
                               reporting agents).

                               Recommendation

                               In light of the growing problem of identity theft and recent
                               headlines reporting the use of stolen identities to establish
                               bogus companies to engage in fraudulent activities:
                               7. The Director, CAS, W&I Division, should consider
                                  sending the FTC’s pamphlet, ID Theft, What’s It All
                                  About,35 to taxpayers who claim or imply their identities
                                  have been used/stolen to obtain the EINs or provide
                                  these taxpayers the FTC’s telephone number/web site.36
                               Management’s Response: Management agreed that
                               taxpayers who believe their identities have been
                               compromised to obtain EINs should be informed of the
                               assistance available from the FTC. Instructions will be

                               35
                                  ID Theft, What’s It All About? Consumer and Business Education,
                               Bureau of Consumer Protection, FTC, published October 2003.
                               36
                                  The FTC’s Identify Theft Hotline numbers are 1-877-438-4338
                               (or 1-877-IDTHEFT) and 202-326-2502 (for Telephonic Devices for the
                               Deaf/Teletype). To file a complaint, visit www.consumer.gov/idtheft or
                               write Identity Theft Clearinghouse, FTC, 600 Pennsylvania Avenue,
                               NW, Washington, D.C., 20580.
                                                                                            Page 16
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                               provided to taxpayers as part of the procedural revisions in
                               response to Recommendation 4.




                                                                                     Page 17
    More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
                 Request Employer Identification Numbers Assigned to Them

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the Internal Revenue Service’s (IRS)
controls over the various methods and procedures used for the issuance of Employer
Identification Numbers (EIN). As part of this review, we determined whether there were
additional steps the IRS could take to increase the efficiency and effectiveness of the processing
of requests for EINs.
This review was undertaken at the request of the IRS, and we worked with information provided
in part by the IRS Small Business/Self-Employed (SB/SE) Division Research function staff. To
accomplish our objective, we:
I.       Evaluated the current procedures and controls over the IRS’ EIN application and issuance
         process.
         A. Gathered and reviewed any prior reports, recommendations, and studies related to the
            IRS’ processing of EIN applications.
             1. Reviewed prior Internal Audit, Treasury Inspector General for Tax
                Administration, and Government Accountability Office reports, as well as any
                IRS internal reports or studies of the EIN application and issuance process and the
                creation of business entities on the Business Master File (BMF).1
             2. Held interviews with IRS management staff to obtain information and
                documentation regarding any concerns with the current EIN application and
                issuance process and to determine whether recommendations from prior audits
                were implemented.
             3. Obtained an understanding of the effect of the issuance of EINs on the filing and
                processing of returns, payments, and other taxpayer account data.
             4. Obtained any information, reports, or documents regarding future plans for the
                processing of EIN applications.
         B. Reviewed all pertinent Internal Revenue Manuals and desk procedures related to the
            processing of EIN applications.
             1. Identified the key controls and procedures in place for each of the EIN application
                methods (online, telephone, fax, and mail).




1
 The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
                                                                                                           Page 18
    More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
                 Request Employer Identification Numbers Assigned to Them

             2. Evaluated whether the current EIN issuance controls and procedures are adequate
                to ensure the future compliance of new business entities created on the BMF and
                to detect and deter fraud.
II.      Determined whether the current EIN issuance process controls and procedures were
         being followed during the processing of EIN applications and the establishment of new
         entities on the BMF.
         A. Analyzed a judgmental sample of 311 cases processed by the IRS’ Brookhaven, New
            York, Campus2 EIN Application Processing Unit3 to determine whether the current
            EIN application and issuance procedures and controls were being followed. The
            judgmental sampling method and sample sizes were chosen based on time and
            resource constraints.
            The sample was expanded, in terms of the number of cases reviewed and the number
            of campuses involved, when auditors noted a potential control weakness involving the
            processing of the Brookhaven Campus EIN Unit correspondence inventory. We
            expanded our sample size within that inventory category by requesting the
            Brookhaven; Cincinnati, Ohio; and Philadelphia, Pennsylvania, Campus EIN Units to
            photocopy any correspondence sent in by taxpayers or their representatives claiming
            they did not apply for the EINs assigned to them during a predetermined collection
            period.
             The EIN Units processing correspondence inventory at the Brookhaven and
             Philadelphia Campuses worked 2,123 correspondence cases during the predetermined
             collection period and identified 26 cases (1.2 percent) that met the criteria outlined
             above. These 26 cases made up the cases referred to in this report.
             Although the EIN Unit at the Cincinnati Campus performed the audit test twice, no
             cases meeting the criteria were identified. However, since that Campus processed
             only 8 percent of the 232,579 EIN correspondence cases worked in Fiscal Year 2004
             and we could not verify the accuracy of the test conducted there, we did not include
             the results. This did not materially affect the audit test results.
III.     Evaluated whether the IRS could take additional steps to increase the effectiveness and
         efficiency of the EIN application and issuance process by reducing the burden on BMF
         customers and increasing the potential for cost savings, increased revenue, and tax
         compliance.


2
  The data processing arms of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  Referred to in this report as EIN Units.




                                                                                                         Page 19
 More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
              Request Employer Identification Numbers Assigned to Them

                                                                                Appendix II


                           Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Robert K. Irish, Audit Manager
Kathleen McFadden, Lead Auditor
Margaret Filippelli, Senior Auditor
Stephen Wybaillie, Senior Auditor
David Clous, Information Technology Specialist




                                                                                       Page 20
 More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
              Request Employer Identification Numbers Assigned to Them

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Chief, Criminal Investigation SE:CI
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Deputy Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Customer Account Services, Wage and Investment Division SE:W:CAS
       Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 21
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them

                                                                      Appendix IV


                     Management’s Response to the Draft Report




                                                                            Page 22
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them




                                                                            Page 23
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them




                                                                            Page 24
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them




                                                                            Page 25
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them




                                                                            Page 26
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them




                                                                            Page 27
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them




                                                                            Page 28
More Effective Procedures Are Needed to Process Taxpayers’ Claims That They Did Not
             Request Employer Identification Numbers Assigned to Them




                                                                            Page 29
